April 9, 2009

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT:         Audit Report – Management of Contract Changes: Convergys
                 Government Solutions, LLC (Report Number CA-AR-09-004)

This report presents the results of our audit of the Management of Contract Changes for
the contract with Convergys Government Solutions, LLC (Convergys), Contract Number
2APSER-03-P-2597 (Project Number 08YG003CA003). Our objective was to
determine whether there were unnecessary or inappropriate increased costs due to
changes to the U.S. Postal Service’s contract with Convergys. Specifically, we
reviewed contract modifications to determine the reasons for contract changes and
determined whether those changes were necessitated by inadequate contract planning
or inappropriate concessions to contractors. This audit was self-initiated as part of a
series of reviews on the Postal Service’s management of contract changes and
addresses operational risks in the Postal Service’s contracting process. See
Appendix A for additional information about this audit.

Conclusion

The Postal Service may have incurred unnecessary costs due to contract changes.
Specifically, there is no evidence that management performed sufficient price and/or
cost analyses for two contract line items (CLIN), International Task Force (ITF)1 and
Kahala Project Initiative,2 with a value of $12.7 million. In addition, we noted inadequate
support for a $2.5 million equitable adjustment payment to Convergys. Therefore, we
are reporting disbursements at risk3 totaling $15,207,140. We will include this non-
monetary impact in our Semiannual Report to Congress. See Appendix B for the
calculation of disbursements at risk.




1
  The ITF was created in 2004 to address concerns Postal Service customers and foreign postal administrations
raised regarding the lack of timely response to international inquiries. The Postal Service added the ITF to the
contact center managed by Convergys on September 16, 2005.
2
  The Kahala Project Initiative was added to the contact center on December 16, 2004. The Postal Service created
the Kahala Project Initiative to increase international volume and revenue and improve delivery performance for
Global Express Mail and Global Airmail Parcel Post.
3
  Disbursements made where proper Postal Service internal controls and processes were not followed.
Management of Contract Changes:                                                  CA-AR-09-004
 Convergys Government Solutions, LLC


Contract Modifications Support and Management

Our audit identified issues regarding the management of several significant contract
modifications. There is no evidence to indicate that management performed sufficient
price and/or cost analyses for two significant modifications and adequately maintained
support for an equitable adjustment payment. Specifically:

      •    Documentation does not exist to verify that sufficient price and/or cost analyses
           were performed for two significant modifications that added $12,707,140 in
           funding for call center support for the ITF and the Kahala Project Initiative. xxx
           xxxxxxx xxxxxxxxxxx xxxxxxx xxxx xxx xxx xxxxxxxxxxx xxxxxxxxx xxxxxxxxxxxx
           xxxxx stated there would have been a verbal conference regarding these
           additions, and involving the xxxxxxxxxx, at the time the modifications were made.
           In addition, they recently found some e-mails between the prior xxxxxxxxxx, the
           Vice President, Supply Management, and the client discussing the need for the
           work, the expedient timing of the work, and some general concerns about the
           overall price of the work, but they did not contain price and/or cost analyses.
           Without sufficient price and/or cost analyses, the Postal Service cannot be
           assured that it obtained the best value for goods and services delivered. The
           Postal Service’s Supplying Principles and Practices4 requires some form of price
           analysis for every purchase. Also, a cost analysis is appropriate when factors
           affecting the purchase will not ensure a reasonable price based on price analysis
           alone. We believe the significance of this purchase exemplifies the need for
           thorough, documented price and/or cost analyses. We identified a non-monetary
           impact of $12,707,140 for disbursements at risk because the Postal Service did
           not apply the appropriate controls to ensure that pricing on these modifications
           was reasonable. (See Appendix B.)

      •    The xxxxxxxxxx stated that when technical work is added to the Convergys
           contract, Convergys submits a rough order of magnitude estimate to the program
           office for technical review. The xxx said that the program office does not always
           have the technical expertise to question the costs estimated by Convergys, and
           generally approves the rough order of magnitude estimate. Defense Contract
           Audit Agency (DCAA) audits of contractor rough order of magnitude cost
           estimates generally find that they are not well supported and often can be
           significantly reduced in price with sufficient price analysis. The U.S. Postal
           Service Office of Inspector General (OIG) provides proposal audit support
           through the DCAA that can assist in analyzing these rough order of magnitude
           cost proposals before negotiation.

      •    The Postal Service paid Convergys a $2.5 million equitable adjustment without
           maintaining adequate support. Supply Management officials believe the xxxxx
           xx, in consultation with the Vice President, Supply Management, calculated the

4
    Supplying Principles and Practices, issued May 1, 2006.




                                                              2
Management of Contract Changes:                                                                     CA-AR-09-004
 Convergys Government Solutions, LLC


           equitable adjustment; however, the details of that calculation, including any claim
           from the contractor, were not maintained in the contract file. During our audit,
           xxx xxxxxxx xx found evidence that the Postal Service Law Department reviewed
           the equitable adjustment and xxxxxxx xx xx xxxxxxx xx incorporate that
           information into the contract file. While this documentation did not show a
           detailed legal analysis, it is nevertheless evident that management consulted the
           Law Department. The Postal Service must ensure it fully supports, analyzes,
           and documents claims and resultant equitable adjustments. The Procurement
           Manual, Issue 2, Clause 4-1.C.2, states that any written or oral order xxxx xxx xx
           that causes a change will be treated as a change order, provided that the
           supplier gives xxx xx written notice stating the date, circumstances, and source
           of the order, and that the supplier regards the order as a change order.5 In
           addition, Section 6.5.2.C3 states that before negotiating an equitable adjustment,
           xxx xx xxxx xxxxxx that price and cost analyses, as appropriate, are made and
           must consider the supplier’s segregable costs of the change.6 As such, the claim
           and equitable adjustment in question are not adequately supported. We
           therefore identified the $2.5 million as disbursements at risk. (See Appendix B.)

We recommend that the Vice President, Supply Management, take steps to ensure xxx
xxxxxxxxxxx xxxxxxx:

1. Performs price and/or cost analyses for future contract modifications and any rough
   order of magnitude proposals submitted by the contractor and documents those
   analyses in the contract file.

2. Properly receives, analyzes, and documents contractor claims and related equitable
   adjustments in the contract file.

3. Incorporates into the contract file recently uncovered evidence of partial claim and
   pricing analyses and consultation with the Postal Service Law Department.

Management’s Comments

Management partially agreed with the finding and recommendation 1 regarding
performance of price and/or cost analyses for future contract modifications and the
inappropriate use of rough order of magnitude estimates. Management stated xxx xx
applied cost realism as the principal method of analysis in reaching a determination of
price reasonableness for the ITF and the Kahala Project Initiative. Regarding the rough
order of magnitude estimates, management stated that the OIG observed that the rough
order of magnitude estimates were more complete and viewed them overall as
equivalent in detail and precision to a proposal. Management believes this is a misuse
of terminology by the supplier and will inform them to use the correct terminology when
submitting proposals in the future. Management’s response to recommendation 1
5
    Procurement Manual, Issue 2, Clause 4-1, General Terms and Conditions, Section C.2, issued January 2002.
6
    Procurement Manual, Issue 2, Section 6.5.2.C3, issued January 2002.




                                                         3
Management of Contract Changes:                                               CA-AR-09-004
 Convergys Government Solutions, LLC


included plans to correct the identified documentation deficiencies through improved
processes and tighter controls for determining price reasonableness. Management
expects to complete these actions by June 2009.

Management agreed with recommendations 2 and 3 and stated the Postal Service will
process future requests for equitable adjustment and claims in accordance with its
policies and procedures. Management also incorporated the documents in question
into the contract file upon locating them in January 2009.

Management also stated that only $2.5 million of the $15,207,140 non-monetary impact
should be reported in the Semiannual Report to Congress. See Appendix C for
management’s comments, in their entirety.

Evaluation of Management’s Comments

Regarding recommendation 1 and the application of cost realism, we do not believe
application of this approach provides sufficient price and/or cost analysis. As defined by
the Postal Service Supplying Principals and Practices, cost realism is a test to
determine if the contractor can fulfill the contract requirements based on the estimated
terms, not whether those terms are reasonable and in the best interest of the Postal
Service.

Regarding recommendation 1 and the use of rough order of magnitude estimates from
the contractor, contrary to management’s comments, we did not evaluate this particular
contractor’s rough order of magnitude estimates and find them to be equivalent to a full
proposal. Regardless of the type of proposal the contractor presented, thorough price
and/or cost analysis best protects the interest of the Postal Service. xxx xxx xxxxxxxxx
xxxx the program office does not always have the technical expertise to question the
Convergys cost estimates and generally approves the rough order of magnitude
estimates. We believe more thorough analysis is necessary and can assist with audit
services, if requested. Therefore, we are reporting disbursements at risk totaling
$15,207,140, and will include this non-monetary impact in our Semiannual Report to
Congress.

The OIG considers management’s comments responsive to the recommendations and
their corrective actions should resolve the issues identified in the report.




                                            4
Management of Contract Changes:                                            CA-AR-09-004
 Convergys Government Solutions, LLC


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, Director,
Supply Management, or me at (703) 248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Joseph Corbett
    Patricia A. Mercincavage
    Craig D. Partridge
    Katherine S. Banks




                                          5
Management of Contract Changes:                                               CA-AR-09-004
 Convergys Government Solutions, LLC


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service entered into a fixed price incentive agreement with Convergys under
contract number 2APSER-03-P-2597, on February 1, 2003, for contact center support.
The Convergys contract is a 4-year base contract with six 1-year renewal options. The
base contract is valued at approximately $255 million, with each 1-year renewal option
valued at approximately $64 million. Currently, the Convergys’ contract is in its second
1-year renewal period.

The purpose of the contact center is to provide customers access to local post office
hours and locations, information on domestic and international rates, Zip Code lookup,
stamp sales transactions, telephone change of address, tracking and tracing of Express
Mail, information on Certified Mail, and Delivery and Signature Confirmation Services.
The center has a “one-call-does-it-all” philosophy by which it provides a centralized
channel for customers requesting a variety of services, such as placing their mail on
vacation hold, inquiring about a change of address, or scheduling redelivery of a mail
item. The center also serves as a customer comment channel to let local post offices
know about customer concerns and service issues. The contact center network
includes electronic mail and a website to provide some of the services offered through
the toll-free telephone number. The contact center has three locations: Denver, CO;
Orem, UT; and Jacksonville, NC.

As of July 2008, there had been 81 modifications to the contract, currently valued at
approximately $407 million. The contract expires on January 31, 2013.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether there were unnecessary or inappropriate
increased costs due to changes to the Postal Service’s contract with Convergys.
Specifically, we reviewed contract modifications to determine the reasons for any
changes and determined whether those changes were necessitated by inadequate
contract planning or inappropriate concessions to contractors.

To accomplish our objective, we reviewed the Convergys contract and the 81
modifications to determine whether management executed them in a timely manner and
whether they made significant changes to the original requirements for deliverables.
We also determined whether management appropriately priced the changes and
performed market research and price and cost analyses for non-administrative contract
modifications.

Further, xx xxxxxxxxxxx the xxxxxxx Convergys’ xx xxx xxx and Postal Service Law
Department officials and reviewed the appropriate Postal Service policies and
procedures used in managing the Convergys contract.




                                            6
Management of Contract Changes:                                                  CA-AR-09-004
 Convergys Government Solutions, LLC


We conducted this performance audit from August 2008 through April 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on November 19, 2008, and included
their comments where appropriate. We did not rely on computer-generated data to
support our audit findings.

PRIOR AUDIT COVERAGE

We did not identify any prior audits or reviews related to the objective of this audit.




                                              7
Management of Contract Changes:                                                      CA-AR-09-004
 Convergys Government Solutions, LLC


             APPENDIX B: CALCULATION OF NON-MONETARY IMPACT
       Number of                                                        CLIN Obligation
                                       Description
       Obligations                                                         Amount
                                            International Task Force
                      Modification (MOD) 50                                     $150,000
                      Mod 53                                                    1,600,000
                      Mod 58                                                    2,500,000
                      Mod 68                                                    4,200,000
                      Mod 74                                                    3,600,000
            5         Total Obligations – International Task Force            $12,050,000

                                            Kahala Project Initiative
                      Mod 39                                                     $266,140
                      Mod 50                                                       91,000
                      Mod 53                                                      300,000
            3         Total Obligations – Kahala Project Initiative              $657,140

            8         Total Obligations ITF and Kahala                        $12,707,140

            1         A $2.5 million Fiscal Year (FY) 2004 equitable            2,500,000
                      adjustment payout - Mod 31

            9         Total Disbursements at Risk                             $15,207,140




                                                 8
Management of Contract Changes:                           CA-AR-09-004
 Convergys Government Solutions, LLC


                      APPENDIX C: MANAGEMENT’S COMMENTS




                                       9
Management of Contract Changes:             CA-AR-09-004
 Convergys Government Solutions, LLC




                                       10
Management of Contract Changes:             CA-AR-09-004
 Convergys Government Solutions, LLC




                                       11
